No. 20-1725
IN THE

Supreme Court of t|) e Untteb States;
DAVID SEIDEMANN, ET AL.,

Petitioners ,
v.

PROFESSIONAL STAFF CONGRESS LOCAL 2334, ET AL.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeal for the Second Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h) , I cer tify that Respondents’ Brief In Opposition in the above
entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b) , being prepared in Century Schoolbook 12 point type for the text and 10 point
for the footnotes, and that the brief complies with the
word limit specified by Rule 33.1(g)(ii) because it contains 3,856 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d) , as needed.

2
Dated: August 5, 2021

P. Cas<2y Pitts
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421- 7151
cpitts@altber.Com
Counsel for Respondent
National Education Association
August 5, 2021

